<html>
<title> - [H.A.S.C. No. 114-8] UPDATE ON DETAINEE TRANSFERS FROM GUANTANAMO</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                          [H.A.S.C. No. 114-8]

              UPDATE ON DETAINEE TRANSFERS FROM GUANTANAMO

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 12, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     






                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-095                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

                                     
  
  
  
  
  
  
  
  
  
  
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

JEFF MILLER, Florida                 JACKIE SPEIER, California
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
JOSEPH J. HECK, Nevada               HENRY C. ``HANK'' JOHNSON, Jr., 
AUSTIN SCOTT, Georgia                    Georgia
MARTHA McSALLY, Arizona              GWEN GRAHAM, Florida
             Christopher Bright, Professional Staff Member
                Michael Amato, Professional Staff Member
                          Abigail Gage, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     6
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     4
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     5

                               WITNESSES

Lewis, Paul M., Special Envoy for Guantanamo Detention Closure, 
  U.S. Department of Defense.....................................     8
Trumbull, Charles, Acting Special Envoy for Guantanamo Closure, 
  U.S. Department of State.......................................    11

                                APPENDIX

Prepared Statements:

    Lewis, Paul M................................................    19
    Trumbull, Charles............................................    33

Documents Submitted for the Record:

    Letter from 42 retired U.S. military officers advocating 
      closure of the Guantanamo Bay detention facility...........    41

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    
    
    
    
    
    
              UPDATE ON DETAINEE TRANSFERS FROM GUANTANAMO

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                       Washington, DC, Thursday, February 12, 2015.
    The subcommittee met, pursuant to call, at 3:05 p.m., in 
Room 2212, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. Welcome. I am delighted to gavel in this 
first hearing and briefing of the Oversight and Investigations 
Subcommittee. Today's event is entitled ``Update on Detainee 
Transfers from Guantanamo.''
    Before we proceed with the hearing, I would like to 
emphasize how honored I am to serve as Oversight and 
Investigations Subcommittee chairwoman in this Congress.
    This subcommittee undertakes important work for the 
Committee on Armed Services. It strives to ensure that the 
policies and programs of the Department of Defense [DOD] are 
properly formulated and implemented in the most efficient 
manner. Previous Congresses have recognized the critical role 
of standalone oversight and investigations. In fact, it is 
essential I recognize a former HASC [House Armed Services 
Committee] chairman and my predecessor, the late Ike Skelton, 
who insisted on establishing this subcommittee when he became 
chairman of the Armed Services Committee during the 110th 
Congress.
    I am also pleased to acknowledge that Chairman Joe Heck, 
who preceded me in this position last year, returns to the 
subcommittee as a sitting member; and I look forward to his 
continued involvement and insights.
    And I also look forward to working with Ranking Member 
Speier as well as Chairman Thornberry, Ranking Member Smith, 
and all members of the subcommittee in the 114th Congress.
    So before continuing with my opening remarks for the 
hearing, I would like to recognize my colleague and ranking 
member of the subcommittee, Ms. Jackie Speier, for any 
welcoming remarks that she may wish to offer.
    Ms. Speier. Thank you, Madam Chairwoman.
    And I too am privileged to serve with you as ranking member 
of this committee. I really think that there is no higher 
calling for all of us as Members of Congress than to do 
rigorous investigations and oversight. And I look forward to 
working with you, and recognizing that together in a bipartisan 
fashion we can address very thorny issues that come before us 
and hopefully come up with constructive solutions.
    I yield back.
    Mrs. Hartzler. Thank you.
    So as we turn to the subject matter at hand, I would like 
to state up front that we will not tolerate any disturbances of 
these proceedings, including verbal disruptions, standing, or 
holding of signs. I appreciate your cooperation in this matter.
    So, this afternoon we have two senior officials appointed 
by the Obama administration charged with the responsibility to 
oversee the closure of Guantanamo Bay detention facility. Our 
witnesses will provide testimony on their roles and the 
interagency process for transferring detainees from the 
detention facility to other countries. We will then adjourn to 
a classified setting, where we will be joined by an official 
from the Defense Intelligence Agency [DIA], in addition to our 
two witnesses, who will elaborate further on the interagency 
transfer process.
    In light of the statements we are about to receive from the 
witnesses and the type of details which are primarily 
classified, I ask unanimous consent that members hold all 
questions for the witnesses until the classified briefing.
    Hearing no objection, so ordered.
    According to information from Joint Task Force Guantanamo, 
the military organization that operates the detention facility, 
their responsibility is to detain unprivileged enemy 
belligerents. The Joint Task Force material explains that the 
detention of unprivileged enemy belligerents in wartime is, ``a 
matter of security and military necessity, and has long been 
recognized as legitimate under international law.''
    The Joint Task Force further notes that detainees provide 
the United States with important intelligence that helps 
prevent future attacks. General James Mattis, a retired 
commander of U.S. Central Command, echoed this in testimony on 
January 27 to the Senate Armed Services Committee. He called 
for consistency in our detention policy, and argued for the 
need to hold belligerents until the end of the fighting so they 
cannot harm others.
    Despite the dedication of the men and women who created and 
operate GTMO [Guantanamo] today, any real or imagined misstep 
or procedural lapse from a decade ago has been sensationalized 
by our terrorist enemies. We must not allow them to succeed in 
inventing a narrative about GTMO and using this narrative to 
lead to GTMO's abolition.
    Let me be clear, terrorists bombed the USS Cole before the 
detention center at Guantanamo existed. Terrorists hijacked 
three airplanes and wrought havoc in the United States on 
September 11, 2001, before GTMO was created.
    The Taliban established their brutal regime in Afghanistan 
before GTMO was built. Indeed, it was because of the death and 
destruction caused by these terrorists that GTMO came into 
being. The crazed fanatics who comprise the Islamic State do 
not exist because of GTMO. Certainly it is not true that if the 
facility ceased to exist these brutal murderers would renounce 
their violent ideology.
    It is wrong to suggest that because the Islamic State 
dresses their victims in orange jumpsuits the United States 
bears even an incidental responsibility for the Islamic State's 
barbaric actions. It is also wrong to use this as a 
justification to shutter GTMO. Indeed, recent events should 
suggest greater, not lesser, caution in moving detainees out of 
GTMO.
    Yet, based on information provided by the Department of 
Defense, 33 detainees have been transferred from Guantanamo in 
the past 11 months, including 15 transfers just this past 
December alone. What is also shocking is that of the 33 
transferred in the past 11 months, 7 of these detainees were 
among 48 recommended for continued detention by the Obama 
administration. Five of those seven detainees were the senior-
most Taliban leaders sent to Qatar in May 2014.
    Recent news reports have suggested that the intelligence 
community believes one of these individuals may have returned 
to the fight. In our classified session we are going to receive 
a briefing on the Taliban Five and learn what the United States 
Government currently assesses about them.
    Two other detainees recommended for continued detention by 
the administration were transferred to Kuwait and Saudi Arabia 
in recent months. I expect to learn more about the process that 
resulted in the transfer of the seven GTMO detainees that the 
President's own advisers recommended remain behind bars. 
Because the administration has often ignored recommendations 
yielded internally from the system it established, it seems 
hypocritical to malign legislation that seeks to improve and 
make more sound the transfer, recommendation process.
    Furthermore, of those 15 detainees transferred in December, 
4 were sent to Afghanistan, where of course a war still rages 
and U.S. forces are deployed, despite the administration's 
claim that combat operations have ceased.
    Six other detainees were sent to Uruguay, where according 
to press reports, the Uruguayan defense minister described them 
as ``totally free men who will not be restricted in any way.'' 
I look forward to today to learning if there is any basis for 
these reports, which if true, are deeply disturbing.
    The remaining 26 of the 33 detainees transferred over the 
past 11 months were deemed to be transferrable by the 
Presidential task force. But the task force noted nonetheless 
that a decision to approve a detainee for transfer does not 
equate to a judgment that the government lacked authority to 
hold the detainee. Even with the stated authority, the 
detainees were sent out of GTMO.
    I am also eager to learn about the transfer arrangements 
for the detainees that fell into this category. This 
subcommittee, like the full Committee on Armed Services, will 
continue to vigorously oversee these and related issues.
    I look forward to the opportunity to mark up the 
legislation sponsored by Representative Walorski and 
cosponsored by Representative Scott.
    I now turn to the ranking member for her opening remarks 
for today's hearing.

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Speier. Thank you, Madam Chair.
    Thank you for addressing this important topic. I also wish 
to thank our witnesses for appearing here this afternoon and 
for sharing with us their insights and their expertise.
    Madam Chairwoman, it is long past time for the United 
States Government to close the detention facility at Guantanamo 
Bay. Its continuing operation damages national security by 
justifying abhorrent extremist behavior, by undermining 
relationships with allies and partners around the globe, and by 
wasting valuable national resources that could be put to 
productive use.
    Whether we like it or not, the detention facility at 
Guantanamo Bay is an injurious symbol. Whether a fair 
representation or not, to many in the world Guantanamo 
symbolizes a manifestation of lawless abuse. It is an emblem 
that fuels twisted ideological propaganda, and it is an 
effective tool in the corruption and recruitment of individuals 
by organizations that exist to do innocent people grave harm.
    Al Qaeda in its various forms has long been considered 
Guantanamo a useful totem. But we would need to look no further 
than the recent atrocities that have been brutally committed 
and luridly disseminated by the so-called Islamic State for 
proof of Guantanamo's enduring liability.
    The Islamic State has purposely utilized imagery that 
evokes common conceptions of Guantanamo, such as cages and 
captives garbed in orange jumpsuits, in an effort to make its 
jihadist message resonate among those susceptible individuals 
who might be outraged by such references and persuaded to 
convert their anger into violence.
    Even Al Qaeda's own English-language magazine, Inspire, 
uses those detained at Guantanamo as a rallying cry. Madam 
Chairwoman, for these reasons we need to treat the closure of 
the detention facility at Guantanamo as a national security 
imperative. The breadth and depth of opposition to Guantanamo 
cannot be overstated.
    President Barack Obama and President George W. Bush, 
Secretary Hagel, Secretary Panetta, Secretary Gates, Generals 
Dempsey and Petraeus, and Admiral Mullen, all similarly support 
the cessation of detention operations at Guantanamo. These are 
seasoned leaders, and we should respect their views, which are 
based on extensive experience in weighing and balancing 
competing national security risk.
    I also have here a letter, Madam Chair, written to Senators 
McCain and Reid by 42 retired flag and generals in the U.S. 
military. And I just want to read one or two sentences from 
their letter: ``It is hard to overstate how damaging the 
continued existence of the detention facility at Guantanamo has 
been and continues to be. It is a critical national security 
issue. Many of us have been told on repeated occasions by our 
friends in countries around the world that the greatest single 
action the United States can take to fight terrorism is to 
close Guantanamo.''
    I would like to have this submitted for the record.
    Mrs. Hartzler. Hearing no objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 41.]
    Ms. Speier. Responsibly managed transfers of select 
individuals from Guantanamo into the custody of foreign 
countries constitutes the necessary first steps towards closing 
the detention center there and to embracing a more pragmatic 
detention policy which strengthens national security and 
upholds American values.
    As it stands, only 122 detainees remain under lock and key 
at Guantanamo, and 54 of those individuals are currently deemed 
eligible for transfer to another country because they have been 
put through a rigorous interagency review process, and it has 
been determined that the risk of their returning to the fight 
can be mitigated.
    We need to put more confidence in this process. Although 
one may never be complete in eliminating the risk that a 
transferred individual will reengage, the risk can be managed. 
In fact, the reengagement figures associated with the review 
process are down dramatically. According to the intelligence 
community, of the 88 transfers that occurred after January 
2009, 6.8 percent of the transferred individuals are confirmed 
to have reengaged, and 1 is suspected of having reengaged.
    Contrast those figures with the 19 percent confirmed and 
14.3 percent suspected of reengagement among the 532 transfers 
that took place prior to 2009 that are over 30 percent. To me, 
the risk of reengagement is outweighed by the risk that 
Guantanamo's stigma will foment violent activities perpetrated 
by extremist individuals and organizations.
    Congress needs to help the President develop a more 
rational detention policy that bolsters national security and 
that is true to our values. The detention facility at 
Guantanamo is an obstacle that needs to be surmounted. We need 
to accelerate the process of responsibly transferring the 
detainees that we can off the island.
    Thank you again, Madam Chairwoman. Although the detainee 
transfer issue is one that has proven divisive and one that 
will continue to spark vigorous debate, it is an issue on which 
we must stay informed and in which should facilitate progress.
    I look forward to a very frank and purposeful discussion in 
closed session, and I yield back the balance of my time.
    Mrs. Hartzler. Sure. Thank you.
    We are honored to have with us the full committee chairman. 
So welcome, Chairman Thornberry.
    And do you have any opening remarks that you would like to 
make?

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Thank you, Madam Chair.
    I just say I appreciate you and the ranking member having 
this hearing. I completely agree with the statement that 
rigorous oversight is a key component of what Congress and this 
committee needs to do and I would add fair--rigorous and fair 
oversight needs to be a part of what we--a big part. And I 
think this subcommittee is going to have its plate full.
    On the subject of today's hearing, I just say I recognize 
there are differences of opinion about Guantanamo. I would 
caution members not to fall too easily for the propaganda of 
the terrorist organizations. I believe they will look for an 
excuse to justify their behavior, whether it is Guantanamo, 
whether it is the Israeli-Palestinian conflict, or anything 
else that they can get some traction on.
    While there are differences on Guantanamo, I hope there are 
no differences on the point that we do not want to see 
additional prisoners released who return to the battlefield to 
threaten Americans here or abroad. And I note I saw a press 
article just this morning that a gentleman who was released 
from Guantanamo back in 2007 or so was recently killed in I 
believe Afghanistan as a key facilitator for ISIS [Islamic 
State of Iraq and Syria], even in Afghanistan.
    So while we have differences that relate to these issues, I 
hope that we can ensure that there are no further releases that 
pose dangers to us and our troops.
    And with that, I thank you and yield back.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Also joining us today is the ranking member of the full 
committee, Ranking Member Smith. Do you have any comments you 
would like to make?

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Madam Chair.
    Yes, just quickly, I think it is a very important issue, I 
think it is very appropriate to have the hearing on it. I 
think, you know, part of the issue with closing Guantanamo is--
and I agree with the chairman actually, I think that ISIS and 
Al Qaeda will come up with whatever excuse they want to come up 
with.
    But the other issue that we have to deal with Guantanamo is 
not just what ISIS or Al Qaeda thinks of it, but what some of 
our allies think of it. You know, critical to our ability to 
round up some terrorists throughout the world has been our 
close working relationship with a lot of our European allies 
and others, all of whom continue to be troubled by the presence 
of Guantanamo. So, you know, will they cooperate with us if 
they think the possibility of that cooperation will lead to an 
inmate being sent to Guantanamo? Maybe yes, maybe no, but I 
think that that is a problem. And is still an eyesore that goes 
beyond our enemies who, as the chairman correctly points out, 
will find any number of different reasons to strike out at us.
    And I will also agree that we need a vigorous oversight. We 
need to, you know, make sure, you know, of who is really 
eligible for release and who isn't, but I think the track 
record that Ms. Speier, you know, outlined shows that we have 
learned the lessons from the pre-2009 days, and we are doing a 
much, much better job of keeping careful track of who can be 
released and who can't be released, and that has been reflected 
in the statistics. There is never a 100 percent guarantee, but 
the track record has definitely improved.
    And lastly, I would say that, you know, in order to close 
Guantanamo, you don't have to release all of the prisoners. 
That has never been the position, or my position anyway, in 
terms of what we should do in terms of closing Guantanamo. It 
is just that the presence of the prison continues to be an 
international eyesore, as I mentioned, to our allies much more 
importantly than to our enemies.
    And second, we have the capability in the United States of 
America to house some of the most dangerous people in the 
world. We have well over 300 terrorists that are in U.S. 
Federal prisons. It has always been, you know, just a total 
straw man, bogus argument that has been set up, we can't bring 
these people here because they are dangerous. Well regrettably, 
every society has to figure out a rational way and a safe way 
to deal with very dangerous people. And if we as a society here 
in the United States cannot safely hold dangerous people, then 
we are in a heck of a lot of trouble, whether Guantanamo exists 
or not. Whatever the population is, and I think the population 
is down to what--Mr. Lewis, sorry, it's about 122?
    Mr. Lewis. 122.
    Mr. Smith. So, you know, whatever percent of that 
population, and I again forget the numbers, but I think it is 
about half of that I think that have been deemed unreleaseable 
for the time being or that we don't want to release them, there 
is no reason on Earth that they can't be safely housed here in 
the U.S., as we already have with hundreds of terrorists. So we 
can get rid of an international eyesore, adequately protect 
ourselves, and I think move forward in a positive direction.
    And let us not forget that I don't think in the history of 
the world there has been a more expensive prison than 
Guantanamo. I am going to get the number off here again, but it 
is somewhere--well, let's let Jackie give it--Jackie gives me 
all the numbers, she has got the sheet in front of her. It is 
like $3 million per inmate per year to hold them in Guantanamo, 
as compared with somewhere in the neighborhood of $75,000 to 
$80,000 a year for maximum security here in the U.S. It simply 
doesn't make policy sense to keep Guantanamo open.
    Part of that policy is sensibly figuring out who can be 
released and who can't be. But the other part of that policy is 
closing the prison and safely holding those who we need to 
continue to hold here in the United States.
    And with that, I thank the chairwoman for her indulgence, 
her time and the hearing, and yield back.
    Mrs. Hartzler. Thank you very much, Mr. Smith.
    So I would now like to introduce our hearing witnesses, 
Paul Lewis was appointed in December 2013 by Secretary of 
Defense Chuck Hagel to be the Department of Defense special 
envoy for closing the detention facility at Guantanamo Bay, 
Cuba. Special Envoy Lewis received his undergraduate degree in 
history from the University of Notre Dame. After graduation 
from Notre Dame Law School, he served in a variety of 
positions, including as a judge advocate in the United States 
Marine Corps.
    Before assuming his current responsibilities, Mr. Lewis 
held other positions in the Department of Defense and in the 
House of Representatives. And most significantly, prior to 
assuming his current position he served in general counsel role 
for this committee. His responsibilities included in particular 
the activities of this subcommittee.
    Mr. Lewis, welcome back to the Armed Services Committee.
    Charles Trumbull is the acting special envoy for Guantanamo 
closure at the Department of State, after having served as the 
deputy special envoy since 2013. His prior assignments include 
working in the office of the legal advisor at the Department of 
State, where he focused on both international humanitarian law 
and international human rights law. Mr. Trumbull received his 
undergraduate degree from Dartmouth College and his law degree 
from Vanderbilt law school.
    So welcome Mr. Trumbull.
    So, we will now turn to Mr. Lewis for your opening 
statement.

   STATEMENT OF PAUL M. LEWIS, SPECIAL ENVOY FOR GUANTANAMO 
         DETENTION CLOSURE, U.S. DEPARTMENT OF DEFENSE

    Mr. Lewis. Thank you, ma'am.
    Madam Chairwoman, Chairman Thornberry, Ranking Member 
Speier, distinguished members of the subcommittee and 
committee, and former colleagues on your dedicated staff. Thank 
you for the opportunity to testify today on past and 
prospective transfers from the detention center at Guantanamo 
Bay, Cuba. I am pleased to be joined by my colleague from the 
Department of State, Charlie Trumbull.
    I understand the members of the subcommittee will be 
participating in an oversight visit to the detention facility 
later this month, and I hope to join you on that visit. When 
you visit Guantanamo Bay you will see dedicated and 
professional service members who perform superbly under 
challenging and difficult conditions.
    I would like to briefly summarize my written statement. On 
January 22, 2009, President Obama signed Executive Order 13492, 
which ordered the closure of the detention facilities at GTMO. 
Pursuant to this order, a special task force, the ``EOTF task 
force,'' was established to comprehensively review information 
in the possession of the U.S. Government about the detainees 
and to assess appropriate disposition options.
    Since then, pursuant to another Executive order signed by 
the President in 2011, and consistent with section 1023 of the 
NDAA [National Defense Authorization Act] for fiscal year 2012, 
a Periodic Review Board [PRB] has begun to review the status of 
those detainees not currently eligible for transfer and for 
whom there are no charges pending and no judgment of conviction 
has been entered.
    As noted, there are 122 detainees remaining at the 
detention facility. Of these, 54 are eligible for transfer, 10 
are being prosecuted or have been sentenced, and 58 are in the 
process of being reviewed by the PRB.
    Secretary of Defense Hagel, as noted, has approved the 
transfer of 44 detainees during his term as Secretary: 11 in 
2013, 28 last year, and 5 this year. The great majority of 
these transfers occurred in accordance with the authorities in 
section 1035 of the fiscal year 2014 NDAA. I urge you to 
maintain those authorities.
    Madam Chairwoman and members of the subcommittee, at the 
outset I want to make one fundamental point about the detention 
facility at Guantanamo Bay, which has been mentioned by several 
of you. The President has determined that closing this facility 
is a national security imperative. The President and his 
national security team have concluded that the continued 
operation of the facility weakens our national security by 
draining resources, damaging our relationships with key allies, 
and emboldening violent extremists.
    I believe it is no coincidence that the ISIL [Islamic State 
of Iraq and the Levant] videos displaying barbaric and savage 
executions of American hostages, and most recently of a 
Jordanian pilot and a Japanese hostage, each showed the victim 
clothed in an orange jumpsuit, believed by many to be the 
symbol of the United States Government's operation of the 
Guantanamo detention facility. ISIL and other terrorist groups 
exploit Guantanamo to enhance their propaganda and recruiting.
    As noted, 42 military leaders, all retired general officers 
and flag officers, have addressed this issue. As stated, they 
said, ``It's hard to overstate how damaging the continued 
existence of the detention facility at Guantanamo has been and 
continues to be. It is a critical national security issue'', as 
mentioned by the ranking member. And as she emphasized, the 
letter continued, ``Many of us have been told on repeated 
occasions by our friends in countries around the world that the 
greatest single action the United States can do to fight 
terrorism is to close Guantanamo.''
    This letter was signed by General Charles C. Krulak, a 
retired Commandant of the United States Marine Corps; Major 
General Michael Lehnert, the first commanding general of the 
detention task force at GTMO; General Joseph Hoar, the former 
head of CENTCOM [U.S. Central Command]; General David M. 
Maddox, the former head of the United States Army in Europe; 
and 36 other retired senior military leaders.
    Many other senior military leaders acknowledge the need to 
close the detention facility at GTMO as well. As noted, Admiral 
Michael Mullen and General Martin Dempsey, the current and 
former chairman of the Joint Chiefs of Staff, support GTMO 
closure.
    In 2010, General David Petraeus, who was then the commander 
of CENTCOM, stated, ``I've been on the record that for well 
over a year saying that GTMO should be closed . . . And I think 
that whenever we have perhaps taken expedient measures, they 
have turned around and bitten us . . . Abu Ghraib and other 
situations like that are non-biodegradables. They don't go 
away. The enemy continues to beat you with them like a stick.''
    In addition to the military, senior figures across the 
political spectrum have made clear that Guantanamo poses 
profound risks to our national security and should be closed. 
As indicated to you, former Secretaries of Defense Robert Gates 
and Leon Panetta, and the current Secretary of Defense Chuck 
Hagel, all support GTMO closure. And finally, as indicated, 
President George W. Bush himself concluded that Guantanamo 
detention facility is ``a propaganda tool for our enemies and a 
distraction for our allies.''
    As noted, we have had 28 detainees transfer in 2014, 5 of 
them transferred this year. These detainees were transferred to 
11 different countries. These recent transfers included 
repatriations to Algeria, Kuwait, Saudi Arabia, and 
Afghanistan. And the recent transfers also included 
resettlements to Qatar, Slovakia, Georgia, Uruguay, Kazakhstan, 
Estonia, and Oman. I look forward to discussing the details of 
each of these transfers and potential additional transfers in 
the closed briefing.
    Overall, 22 nations have taken detainees from GTMO who are 
not from that country. This broad support in the international 
community is also demonstrated by the numerous international 
organizations calling for closure, including the Organization 
for American States, and most recently the Vatican.
    As with our military leaders, foreign leaders regularly 
cite the Guantanamo detention center as an obstacle to 
counterterrorism efforts. For example, a high-ranking security 
official from one of our staunchest allies in counterterrorism 
told Charlie's predecessor, Cliff Sloan, ``the greatest single 
action the United States can do to fight terrorism is to close 
Guantanamo.''
    I will talk briefly about the transfer process. My written 
statement discusses this process, security assurances, which 
include travel restrictions, monitoring, information sharing, 
and reintegration and rehabilitation programs, all important 
factors in mitigating the risks in detail. But in summary, we 
try to do three things.
    We assess the risks and balance the risks. Transfers are 
not risk free, but neither is continued detention. Second, we 
evaluate all sorts of information in making these decisions. 
All sorts of information. And three, we tailor agreements and 
conditions to mitigate the threat, and we follow up. As 
indicated, we take the responsibility of reengagement very 
seriously. Secretary Hagel has testified forcefully before the 
full committee on this.
    Briefly, the ODNI [Office of the Director of National 
Intelligence] recognizes these figures in three ways: total; 
pre-January 22, 2009; and post-January 22 of 2009. I will 
summarize the current public reporting. For the total figures 
there are 17.3 percent confirmed and 12.4 percent suspected, 
for a total of 29 percent confirmed or suspected of 
reengagement.
    Prior to January 22, 2009, 19 percent confirmed, 14.3 
percent suspected, for a total of 33 percent. And post-January 
22, 2009, 6.8 percent confirmed and 1.1 percent suspected, for 
a total of 7.9 percent confirmed or suspected. In other words, 
as noted, the rate of reengagement has been much lower for 
those transferred since 2009.
    Of the detainees transferred under this administration, 
over 90 percent are neither confirmed nor suspected of having 
reengaged. And I want to emphasize one additional key point 
about this reengagement data. Of the 107 confirmed of 
reengaging, the vast majority of them transferred prior to 
2009, 48 are either dead or in custody.
    Detainees transferred from GTMO by no means receive a free 
pass to reengage. Their activities are closely watched, and we 
are committed to using all lawful tools, if necessary, to 
mitigate the threat such detainees may pose if they do 
reengage.
    Finally, our plan to close the Guantanamo detention 
facility has three main elements. First, we will continue the 
process of responsibly transferring the 54 detainees eligible 
for transfer. Second, we will continue the prosecution of 
detainees in military commissions, and if possible, in Federal 
courts. And third, we will continue to expedite the PRB 
process.
    When we have concluded all these three lines of effort, it 
is likely that there will be a limited number of detainees who 
cannot be prosecuted, but as noted, are too dangerous to 
transfer even with the security assurances. They will remain in 
our custody, and we will work with Congress on options for 
those detainees.
    In conclusion, President Bush worked toward closing GTMO 
and many officials in his administration worked hard towards 
that objective. The President and his national security experts 
of this administration also believe it should be closed. The 
senior military leaders of the country and the leaders of the 
Department of Defense concur. As indicated in the letter by the 
retired military leaders, many believe closure of this facility 
is the single most important counterterrorism effort the United 
States can undertake. And as you have heard, many of our allies 
agree. We believe the issue is not whether to close the 
Guantanamo Bay detention facility, the issue is how to do it.
    And thank you, and I look forward to your questions at the 
closed briefing.
    [The prepared statement of Mr. Lewis can be found in the 
Appendix on page 19.]
    Mrs. Hartzler. Thank you.
    Now we will hear opening remarks from Mr. Trumbull.

    STATEMENT OF CHARLES TRUMBULL, ACTING SPECIAL ENVOY FOR 
          GUANTANAMO CLOSURE, U.S. DEPARTMENT OF STATE

    Mr. Trumbull. Well, thank you, Madam Chairwoman, Ranking 
Member Speier, and members of this committee.
    I appreciate your invitation to appear here today on the 
important matter of detainee transfers from Guantanamo Bay 
detention facility.
    I am also honored to be here along with my colleague, 
Department of Defense special envoy Paul Lewis.
    The special envoy for Guantanamo closure serves as the 
State Department's lead negotiator for the transfer of 
Guantanamo's detainees abroad, and my office has a primary 
responsibility for managing the diplomatic issues related to 
the facility.
    My office also plays a leading role in the interagency 
process that determines when and where a detainee is 
transferred, as well as the periodic review process for those 
detainees not currently approved for transfer. In addition, we 
work closely with our embassies around the world to follow up 
on the progress of detainees who have been transferred to other 
countries.
    It has been an honor to contribute to this administration's 
goal of closing the detention facility at Guantanamo Bay, a 
process that started under the Bush administration. As 
President Obama has stated, the detention facility at 
Guantanamo, ``Weakens our national security by draining 
resources, damaging our relationships with key allies and 
partners, and emboldening violent extremists.''
    World leaders consistently call on us to finally close 
Guantanamo, including Pope Francis just last month. From a 
foreign affairs perspective, I cannot overstate the fact that 
Guantanamo is a serious irritant in our relationships with 
important partners and allies, and interferes with our 
cooperation on issues ranging from security and 
counterterrorism to the promotion of human rights.
    As the acting special envoy, my and Paul's primary focus is 
to transfer the 54 detainees who are currently approved for 
transfer. Now, ``approved for transfer'' is an extremely 
important designation because it reflects the considered 
unanimous judgment of national security experts from six 
agencies that an individual detainee can and should be 
transferred, subject to appropriate security measures. That is, 
a detainee is approved for transfer only when defense, 
diplomatic, intelligence, and law enforcement professionals 
determine that the detainee's transfer is consistent with U.S. 
national security and foreign policy interests.
    Detainees can be approved for transfer in one of two ways. 
The vast majority of the 54 individuals currently approved for 
transfer were approved by the 2009 Executive order task force, 
which included representatives from the Department of State, 
the Department of Defense, the Joint Chiefs of Staff, the 
Department of Justice, the Department of Homeland Security, and 
the Office of the Director of National Intelligence. This 
rigorous interagency process collected and considered all 
reasonably available information concerning the detainees at 
Guantanamo Bay.
    The decision to approve a detainee for transfer required 
the unanimous consensus of these six departments and agencies, 
and it reflected the best predictive judgment of senior 
government officials that any threat posed by the detainee 
could be sufficiently mitigated through feasible and 
appropriate security measures in the receiving country.
    As the publicly available task force report notes, many of 
these detainees were at most low-level fighters and are 
``appropriate candidates for transfer from a threat perspective 
in light of their limited skills, minor organizational roles, 
or other factors.''
    A detainee can also be approved for transfer by the 
Periodic Review Board. The PRB is in the process of considering 
detainees who are not currently approved for transfer, facing 
charges in the military commission, or are awaiting or serving 
their military commission sentence.
    The PRB panel consists of one voting member from the 
Departments of Defense, Homeland Security, Justice, and State, 
as well as the Joint Staff and the Office of the Director of 
National Intelligence. The PRB's mandate is to determine 
whether the continued detention of a detainee is necessary to 
protect against a continuing significant threat to the national 
security of the United States. Detainees appearing before the 
PRB are assigned a personal representative and have the 
opportunity to be represented by a private counsel at no cost 
to the government. Detainees can provide an oral and a written 
statement, submit evidence, call witnesses, and elect to answer 
questions posed by the board members.
    Thus far, the PRB has reviewed the cases of 12 individuals, 
and has reached a final determination in 9 of those cases. Of 
the nine detainees whose results have been finalized, six were 
approved for transfer, and three were designated for continued 
detention. This track record should make clear that the PRB is 
not a rubber stamp for either transfer or continued detention.
    Now, I just want to talk a little bit about the detainee 
transfers that Paul has also gone over. We have made 
significant progress in transferring those detainees who are 
approved for transfer. As Paul noted, 28 detainees were 
transferred in 2014, and 5 detainees have been resettled thus 
far this year. The 54 remaining detainees who are approved for 
transfer can and should be transferred from Guantanamo, subject 
to appropriate security measures and humane treatment 
assurances.
    It is important to note that the decision to approve a 
detainee for transfer is not the end of the process. Prior to 
any transfer, the intelligence community provides an updated 
assessment of the individual, as well as an assessment of the 
receiving country's capabilities. We also work extensively with 
receiving governments to ensure that measures have been or will 
be taken to substantially mitigate the threat that the 
individual will engage or reengage in activity that threatens 
the United States or United States persons or interests.
    Our rigorous approach to transfers, which looks both at the 
potential threat posed by the individual and the measures that 
the receiving country has taken or will take, is effective. 
According to the most recent public report from ODNI, of the 
detainees transferred under this administration only 6.8 
percent are confirmed and only 1.1 percent are suspected of 
engaging in hostile or uncertain activity.
    While we take every instance of reengagement seriously, the 
important point is that over 90 percent of these individuals 
are not even suspected, much less confirmed of engaging in 
hostile activities after their release.
    Now one challenge we face in our effort to close Guantanamo 
is the fact that many of the detainees approved for transfer 
cannot be returned to their home country due to the security or 
humane treatment concerns. As former special envoy Sloan wrote 
in New York Times, these individuals are not the worst of the 
worst, but rather they are the detainees at Guantanamo with the 
worst luck. Of the 54 detainees currently approved for 
transfer, 47, for example, are from Yemen. Members of this 
committee are certainly aware of the security situation in that 
country. This administration has not transferred a Guantanamo 
detainee to Yemen since 2010. And our current focus is 
resettling those individuals in third countries.
    In the past several months we have resettled 12 Yemenis to 
5 different countries. It is a testament to our strong standing 
internationally that numerous countries have been willing to 
provide homes for those individuals who cannot be returned to 
their home country and who should not remain at Guantanamo 
solely because of the security situation in Yemen. These 
countries should be commended for taking this important 
humanitarian step and for the contribution to the President's 
goal of closing Guantanamo in a secure and responsible manner.
    Looking forward, our goals for 2015 are clear. First, we 
must transfer all of those detainees approved for transfer, the 
vast majority of whom have been approved for 5 years. Second, 
we must continue and expedite the PRB process. In both of these 
efforts, I look forward to working closely with Paul Lewis and 
with my interagency colleagues, as well as members of this 
committee.
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Trumbull can be found in the 
Appendix on page 33.]
    Mrs. Hartzler. Thank you.
    Pursuant to our unanimous consent agreement, we will now 
adjourn from open session and reconvene immediately for our 
classified briefing in room 2216.
    [Whereupon, at 3:45 p.m., the subcommittee proceeded in 
closed session.]


      
=======================================================================




                            A P P E N D I X

                           February 12, 2015

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 12, 2015

=======================================================================
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 12, 2015

=======================================================================

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                                [all]
</pre></body></html>
